U.S. PATENT AND
TRADEMARK OFFICE
USPTO’s Other Backlog:
Past Problems and Risks
Ahead for the Board
of Patent Appeals
and Interferences




FINAL REPORT NO. OIG-12-032-A
AUGUST 10, 2012



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

For Public Release
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230




August I0, 20 12

MEMORANDUM FOR: David Kappes
                Under Secretary of Commerce for Intellectual Property
                 and Director of the U.S. Patent and Trademark Office


FROM:                      Ron Prevost ~~;;:z_
                           Assistant In ector General for Economic
                            and Statistical Program Assessment

SUBJECT:                   USPTO's Other Backlog: Past Problems and Risks Ahead
                            for the Board of Patent Appeals and Interferences
                           Final Report Number OIG-12-032-A

Attached is the final report on our audit of USPTO's Board of Patent Appeals and Interferences
(BPAI). This audit, part of OIG's fiscal year (FY) 2012 audit plan, determined whether BPAI
staffing and resources have changed in relation to changes in its caseload and to what extent
BPAI's operations and resources will be affected by the implementation of the America Invents
Act (AlA).

We found BPAI's staffing levels did not increase as the number of patent examiners grew; its
actual ex parte appeal backlog prior to FY 20 I0 was higher than reported to external
stakeholders; and BPAI had not established a performance target for ex parte appeals. In
addition, BPAI lacked a comprehensive AlA implementation plan before May 20 12; its current 

AlA implementation plan lacked requirements for measuring progress and performance; and 

BPAI had not determined its future management and administrative staffing structure. 


Our draft report proposed six recommendations to address these issues. In its response to our 

draft report, USPTO agreed with all recommendations and outlined steps it has taken or plans 

to take to address them. We are pleased to learn USPTO took prompt corrective action to 

address the recommendation about annotating current information on its public Web site 

regarding the backlog data prior to 20 I0. USPTO has provided information to external 

stakeholders explaining the discrepancy surrounding the ex parte appeal backlog. 


In accordance with Department Administrative Order 213-5, please provide us with an action 

plan within 60 calendar days of the date of this memorandum that responds to the 

recommendations. We thank USPTO personnel for the assistance and courtesies extended to 

my staff during the review. If you have any further questions or comments about the report, 

please feel free to contact me at (202) 482-3052 or Carol Rice, Division Director, 

at (202) 482-6020. 

Attachment

cc: 	   James D. Smith, Chief Judge, Board of Patent Appeals and Interferences, USPTO
        James T. Moore, Vice Chief Judge, Board of Patent Appeals and Interferences, USPTO
        Margaret Focarino, Commissioner for Patents, USPTO
        Bo Bounkong, Associate Commissioner for Patent Resources and Planning, USPTO
        Anthony P. Scardino, Chief Financial Officer, USPTO
        Welton Lloyd, Audit Liaison, USPTO
        Katrina Pritchett, Office of Planning and Budget, USPTO
                                                 Report In Brief                                          AUGUST 10, 2012




Background                         U.S. PATENT AND TRADEMARK OFFICE
As the sole authority for issu-    USPTO’s Other Backlog: Past Problems and Risks Ahead
ing U.S. patents, USPTO’s
responsibilities include review-
                                   for the Board of Patent Appeals
ing and deciding on patent         OIG-12-032-A
applications, as well as provid-
ing the means for parties to       WHAT WE FOUND
appeal patent examiners’
decisions. Although the back-      Between FYs 2005 and 2011, as the number of appeals BPAI received for review rose substantially (as
log of patent applications re-     have the appeal backlog and pendency time), BPAI’s staffing levels have remained essentially flat. Furthermore,
mains at more than 600,000,        until 2008, inaccurate data delayed efforts to address the growing backlog and increase in appeal pendency. Our
USPTO has also accumulated         concerns include:
another substantial, growing         BPAI Staffing Levels Did Not Increase as the Number of Patent Examiners Grew. While the number of BPAI’s
backlog and pendency of pat-         administrative patent judges has increased, their growth has not been as steady as the growth of patent
ent appeals.                         examiners or their decisions.
Responsibility for patent ap-        Prior to FY 2010, the Actual Ex Parte Appeal Backlog Was Higher Than Reported to External Stakeholders.
peals rests with the Board of        Between FYs 2005 and 2009, BPAI did not accurately account for the true number of ex parte appeal
Patent Appeals and Interfer-         cases awaiting its review, because thousands of unassigned cases that should have been added to BPAI’s
ences (BPAI), USPTO’s admin-         case management docket remained in a holding status.
istrative law body. Most of
BPAI’s cases are ex parte ap-        BPAI Has Not Established a Performance Metric For Ex Parte Appeals. Unlike both Patents and Trademarks,
peals, for which judges hear         BPAI does not have official performance targets to serve as public benchmarks for directing its efforts
from one side only. As the           and measuring the success of its ex parte activities.
number of decisions have           Further, AIA significantly increases BPAI’s responsibilities—yet BPAI lacks a strategic plan for expanding
increased (almost doubling         its operations and an implementation plan to guide it through the many uncertainties associated with
from FYs 2005 to 2011), so         organizational growth. Specifically, we found:
have the number of ex parte
appeals—and the average time         BPAI Lacked a Comprehensive AIA Implementation Plan Before May 2012. To address the law’s passage, BPAI
to decide an appeal has almost       prepared key individual documents but did not initially prepare a comprehensive implementation plan.
doubled since FY 2010.               Current AIA Implementation Plan Lacks Requirements for Measuring Progress and Performance. BPAI’s
                                     strategic AIA implementation plan lacks the milestones, tasks, delivery dates, and task leads to guide
Why We Did                           AIA implementation, measure progress and results of new proceedings, and manage and mitigate risks
This Review                          before they occur.
The growing number and               BPAI Has Not Determined Its Future Management and Administrative Staffing Structure. Even though it will
pendency of ex parte appeals         increase in size to address a growing appeal backlog and new AIA trial proceedings, BPAI has not completed a
is not the only challenge BPAI       comprehensive workforce analysis or prepared a workforce plan for its future management and administrative
faces. The America Invents           staffing needs.
Act of 2011 gives BPAI opera-
tions additional responsibili-     WHAT WE RECOMMEND
ties—including planning, imple-    We recommend that the Under Secretary of Commerce for Intellectual Property and Director of USPTO:
menting, and institutionalizing
new proceedings for reviews           Align BPAI’s resource planning with the hiring actions and expected production levels of patent 

and expanding the size of BPAI         examiners; 

to meet these responsibilities.       Require BPAI to annotate current information on public websites to indicate that backlog data prior
                                       to FY 2010 is underreported and therefore should be used with caution;
Because of these challenges,
our review sought to deter-           Direct BPAI to develop and publish performance measures and targets for ex parte appeals and 

mine (1) whether BPAI’s staff-         other proceedings;

ing and resources have                Develop comprehensive management plans (including how to measure progress, gauge performance,
changed in relation to changes         and identify risk) to address the implementation and operational oversight of the new BPAI
in its caseload and (2) to what        proceedings under the AIA;
extent BPAI operations and
                                      Ensure that data processing systems meet the needs of all four AIA proceedings; and
resources will be affected by
the implementation of AIA.            Explore the feasibility of BPAI’s current management and administrative structure and staffing, given
                                       the increase in the number of proceedings and staff at BPAI.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................5
 
   I.	  BPAI’s Staffing Levels, Data on Backlogs, and Lack of Performance Targets 

        Compromise the Timely Review of Ex Parte Appeals .................................................................5 

       A.	  BPAI Staffing Levels Did Not Increase as the Number of Patent Examiners Grew .........5 

       B. 	 Prior to FY 2010, the Actual Ex Parte Appeal Backlog Was Higher Than Reported 

            to External Stakeholders ................................................................................................................7 

       C. 	 BPAI Has Not Established a Performance Metric For Ex Parte Appeals ............................9 

   II.	  BPAI, with Increased AIA Responsibilities, Lacks a Comprehensive Plan to Guide 

         Implementation and Ongoing Management ................................................................................. 11
 
       A.	  BPAI Lacked a Comprehensive AIA Implementation Plan Before May 2012 ................. 11 

       B. 	 Current AIA Implementation Plan Lacks Requirements for Measuring Progress 

            and Performance........................................................................................................................... 12
 
       C.  BPAI Has Not Determined Its Future Management and Administrative Staffing 

       Structure ................................................................................................................................................. 13
 
Summary of Agency Comments and OIG Response............................................................................. 15
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 16 

Appendix B: Ex Parte Appeals Process ..................................................................................................... 21
 
Appendix C: Agency Response................................................................................................................... 22
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934 





FINAL REPORT NO. OIG-12-032-A
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Introduction
As the sole authority for issuing U.S. patents, the
U.S. Patent and Trademark Office (USPTO)                              BPAI plays a critical role in
responsibilities include reviewing and deciding on                    ensuring that inventors have the
patent applications, as well as providing the means                   opportunity to protest the decision of
for parties to appeal patent examiners’ decisions.                    the patent examiner who rejected
Much attention over the past decade has focused                       their claims. Patent applicants may
on the backlog of patent applications, which                          submit an ex parte appeal to BPAI
remains above 600,000. During that time, however,                     after any of their claims have been
USPTO has also accumulated another substantial,                       rejected twice by patent examiners.
growing backlog and pendency of patent appeals.

Responsibility for patent appeals rests with the Board of Patent Appeals and Interferences
(BPAI), USPTO’s administrative law body. Figure 1 below, shows the BPAI administrative appeal
process which an applicant must generally follow (see appendix B for more details on the appeal
process).

                                    Figure 1. Overview of BPAI Patent Appeals Process




              Source: OIG, based on USPTO documentation

Although BPAI decides on various types of cases, the majority of its cases are ex parte appeals.1
Around 1–3 percent of the applications that examiners decide each year are appealed by the
applicant. While the percent has remained in this range over time, the actual number of patent
decisions has increased dramatically, from almost 300,000 decisions in fiscal year (FY) 2005 to
over 530,000 in FY 2011. As expected, as the number of patent examiners grows, the number
of new ex parte appeals also grows significantly, reaching 13,500 in FY 2011. The time it takes
to decide an ex parte appeal has also grown, almost doubling in the time between FY 2010 and
the midpoint of FY 2012 (see figure 2 below). Just in the 6 months between the end of FY 2011
and the midpoint of FY 2012, the average amount of time between an appeal arriving at BPAI
and receiving a decision increased from 17 months to 23 months.


                                                            
1
  Ex parte is defined in Black’s Law Dictionary as “done or made at the instance and for the benefit of one party only,
without notice to, or argument by, any person adversely interested.” Ex parte proceeding is defined as “a
proceeding in which not all parties are present or given the opportunity to be heard.” (9th ed., 2009). In addition
to ex parte appeals, BPAI receives requests for inter partes and ex parte reexaminations from patent owners or
third parties to evaluate the patentability of a claim or claims of an existing patent. BPAI also has jurisdiction for
interferences, which are appeals from applicants who claim the same proposed invention as one already claimed by
another applicant or patent owner.


FINAL REPORT NO. OIG-12-032-A                                                                                         1
  DEPARTMENT OF COMMERCE
U.S.                                                                                                    OFFICE OF INSPECTOR GENERAL

                                        Figure 2. Average Appeal Pendency (in Months), 

                                             Compared with the Patent Production 


                   25                                                                                                          600,000


                                                                                                                               500,000
                   20

                                                                                                                               400,000




                                                                                                                                         Patent  Decisions
                   15
          Months




                                                                                                                               300,000

                   10
                                                                                                                               200,000

                    5
                                                                                                                               100,000


                    0                                                                                                          0
                         2005*             2006*               2007*   2008*    2009*          2010    2011       2012**

                          Average  Time,  from Appeal Arrival at  BPAI to  BPAI Decision (in Months)   Patent Examiner   Decisions***


     Source: OIG, based on USPTO data
     * Pendency estimates (in months) are likely understated during these years due to procedural issues (see
     finding I.B of this report); ** the 2012 pendency estimate is for the first half of the fiscal year; *** data are
     not available on the number of patent decisions issued for the first half of FY 2012.

However, a patent applicant has already invested time in the patent process prior to the time
spent waiting for a decision on appeal. On average, a patent applicant must wait about 3 years
for a final decision on a patent application. Those years, combined with the appeals period as
well as an interim period when additional procedural steps may accompany an appeal, can add
more than 5 years2 to the time when the inventor first filed the patent application (see figure 3
below). These long delays in receiving a patent can negatively affect economic growth, including
job creation and the production of new goods or services.




                                                            
2
 After a patent examiner rejects a claim for a patent twice, an applicant’s options include requesting an examiner
re-review the application through a request for continued examination (RCE), filing a notice of appeal, or filing an
appeal after submitting an RCE. This estimate of 5 years does not include the additional time an application may
spend in the RCE process. Pendency for applications that went through the RCE and then the appeals process
averaged about 81 months, or close to 7 years, for those appeals decided in FYs 2010–2011.


FINAL REPORT NO. OIG-12-032-A                                                                                                                                2
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                 OFFICE OF INSPECTOR GENERAL

                        Figure 3. Average Overall Appeal Processing Time by Stage (in Months)
                                                                       Applicants can pursue several opportunities  to 
                                                                       reargue their case  to the  patent corps
                                                                                                                         Appeal arrives at the  BPAI for review by  
                                       Examiner rejects application                                                      an administrative patent judge

                        2005*                      29                                               16                      6

                           *
                        2006                          31                                                 16                     6

                           *
                        2007                            32                                               15                     6
        Fiscal  Years




                           *
                        2008                            32                                                    18                      7
                           *
                        2009                                 35                                                     18                      8

                        2010                                 35                                                    15                      12

                        2011                               34                                                 14                           17

                                0         10                      20                 30                   40                    50                 60              70
                                                                                           Months
                                    Patent Pendency                    Notice  of  Appeal Filed to  Docketed at  BPAI                Arrive  at BPAI to Decision


     Source: OIG, based on USPTO data

Yet the growing number and pendency of ex parte
appeals is not the only challenge BPAI faces. The
America Invents Act (AIA, P.L. 112-29), signed in
September 2011, places additional responsibilities                                                                      Under AIA, BPAI will also be 
on BPAI operations. These new responsibilities                                                                          responsible for: 
include planning, implementing, and institutionalizing                                                                    Post‐grant reviews, where someone 
new proceedings for post-grant reviews, inter                                                                             other than the patent holder 
partes reviews, and derivations, and include                                                                              petitions USPTO to cancel claim(s) 
expanding the size of BPAI to meet these                                                                                  within 9 months of a patent being 
responsibilities.3                                                                                                        issued. 
                                                                                                                          Inter partes reviews, where someone 
Because of the growing pendency and the additional          other than the patent holder 
requirements to implement AIA, the objectives of            petitions USPTO to cancel claim(s) 9 
this audit were to determine (1) whether BPAI’s             months   after a patent is issued. 
staffing and resources have changed in relation to          Derivations, where patent holders 
changes in its caseload and (2) to what extent BPAI         and other parties challenge a 
operations and resources will be affected by the            claimed invention on the basis that 
implementation of AIA. In examining BPAI’s                  one applicant derived his application 
                                                            from another applicant without 
resources, we reviewed relevant documents and
                                                            authorization. 
interviewed appropriate agency officials. Using
USPTO data, we analyzed changes in BPAI’s ex
parte appeals caseload, including backlogs and
pendency, and its staffing and resources. We also reviewed and tested policies and internal
controls relevant to BPAI’s caseload. In examining the impact of AIA on BPAI operations, we
                                                            
3
    In addition, the AIA also changes BPAI’s name to the Patent Trial and Appeal Board effective September 16, 2012.


FINAL REPORT NO. OIG-12-032-A                                                                                                                                           3
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL

reviewed relevant legislation, proposed rules, and related documents and interviewed
appropriate officials. For more details on the scope and methodology of our audit work, see
appendix A. Appendix B contains an overview of the ex parte appeals process.




FINAL REPORT NO. OIG-12-032-A                                                                 4
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

    I.	       BPAI’s Staffing Levels, Data on Backlogs, and Lack of Performance Targets
              Compromise the Timely Review of Ex Parte Appeals

       Between FYs 2005 and 2011 the number of appeals BPAI received for review each year
       rose substantially. However, during this same time, BPAI’s staffing levels have remained
       essentially flat. The mismatch between BPAI’s workload and workforce led to (a) a rapid
       rise in the appeal backlog and (b) a near doubling of the time it takes to receive a decision
       on an appeal in the past 2 years. Furthermore, until FY 2008, inaccurate data delayed efforts
       to address the growing backlog and increase in appeal pendency. BPAI’s expected hiring
       surge in FYs 2012 and 2013 should begin to alleviate the backlog, but it will need to make
       significant changes to address the legacy of inadequate staffing and prevent another rapid
       rise in the ex parte appeal backlog.

       A. BPAI Staffing Levels Did Not Increase as the Number of Patent Examiners Grew

              Historical data indicates correlations among the number of patent examiners, the
              number of patent examiner decisions, and the number of appeals filed by patent
              applicants: as the number of patent examiners increases, so do the number of decisions
              and, subsequently, the number of appeals.4 From FY 2005 to FY 2011, the number of
              patent examiners increased from 4,258 to 6,785 and the number of patent examiner
              decisions increased from 298,838 to 533,943. During this same time period, the number
              of BPAI’s administrative patent judges (APJs) also increased, from 54 to 100, although
              their growth was not as steady as the growth of patent examiners or their resultant
              decisions. APJ levels remained at about the same level from FY 2005 to FY 2008, and
              again in FYs 2009 and 2010 (see figure 4 below).

 




                                                            
4
 In general, after an applicant files a notice of appeal and appeal brief and pays the relevant fees, a patent examiner
must write an “examiner’s answer” in response to the appeal. In FY 2010 and 2011, 96 percent of the appeals that
received examiner’s answers were eventually docketed with BPAI.


FINAL REPORT NO. OIG-12-032-A                                                                                         5
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

                         Figure 4. Patent Examiners and Administrative Patent Judges 

                                       Staffing Statistics (FY 2005–2011)





Source: OIG, based on USPTO data

              During this same period, the backlog grew as BPAI did not process the growing number
              of decisions, reaching almost 24,000 appeals at the end of FY 2011. Based on our
              analysis (see figure 5 below), the estimated workload of the number of appeals per judge
              has far exceeded the required workload level of APJs as set out in their performance
              plans.5

 




                                                            
5
  BPAI’s performance plans layout the minimum number of appeals that must be issued per judge based on the
technical specialty.


FINAL REPORT NO. OIG-12-032-A                                                                                6
  DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL

        Figure 5. Estimated Workloada per APJ Compared with Required Workload



                                                              350
                                                              300

                                          Appeals per Judge
                                                              250
                                                              200
                                                              150
                                                              100
                                                               50
                                                                0
                                                                    2005   2006       2007       2008     2009
                                                                                  Fiscal Years
                                  Estimated appeal workload per judge
                                  Required Workload per judge established in BPAI's performance Evaluations

                Source: OIG, based on USPTO data 

                a
                  Workload represents decided appeals plus backlog of appeals.


       B.	 Prior to FY 2010, the Actual Ex Parte Appeal Backlog Was Higher Than Reported to External
           Stakeholders

              Between FYs 2005 and 2009, BPAI did not accurately account for the true number of ex
              parte appeal cases awaiting its review, because thousands of cases that should have been
              added to BPAI’s case management docket were not assigned to anyone at either Patents
              or BPAI. These appeals had mistakenly been kept in a holding status, when they had
              actually been ready for BPAI’s review and should have been transferred accordingly. As
              a result, several thousand additional cases previously unaccounted for were added to
              BPAI’s docket of ex parte appeals once USPTO staff identified this problem in 2008.
              Before FY 2008, the process for transferring appeals to BPAI was unreliable. If the
              appellant had not filed a reply brief to an examiner’s answer, which is an optional step in
              the appeals process, there was no automatic notification that Patents should transfer an
              appeal to BPAI. When USPTO staff identified this problem, the agency took corrective
              actions and implemented new controls to ensure appeals’ automatically transfer to
              BPAI, regardless of whether an appellant filed a reply brief. In addition to this problem,
              BPAI experienced significant delays in completing the intake procedures for the newly-
              discovered appeals, as well as new appeals, generated in FYs 2008 and 2009. Due to
              these delays, many appeals were not reflected in BPAI’s FYs 2008 and 2009 backlog
              statistics. Thus, the statistics for describing the number of new appeals and the size of
              the backlog are inaccurate until FY 2010.

              Using historical statistics,6 we estimated that the gap between the reported and likely
              size of the backlog worsened each year until USPTO discovered the error in 2008 (see
                                                            
6
 These data are based on the number of patent applications, rejected by patent examiners, which become appeals.
See appendix A for more information on this methodology.


FINAL REPORT NO. OIG-12-032-A                                                                                             7
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

        figure 6 below). At the high point of this problem in 2008, we estimate that BPAI may
        have understated the size of the backlog by as much as 9,443 appeals (see appendix A
        for our methodology for estimating the likely size of the backlog). Since that time, our
        testing indicates that USPTO has corrected the problem to ensure that appeals are
        accounted for in BPAI’s case management system.

                          Figure 6. Reported Ex Parte Appeal Backlog
                                Versus OIG-Estimated Backlog

              18,000
              16,000
              14,000
              12,000
              10,000
               8,000
               6,000
               4,000
               2,000
                    0
                            2005           2006          2007           2008          2009

                                Likely Size of Backlog          Reported Size of Backlog

             Source: OIG, based on USPTO data

        The legacy of this problem continues to negatively affect both internal and external
        users of BPAI’s data, as BPAI has not publicly acknowledged this problem. As a result,
        both internal and external users may base decisions on inaccurate data. For example,
        internally BPAI continues to use the inaccurate figures for the size of new appeals in FYs
        2005–2009 to test how well their current backlog forecasting model predicted previous
        years. The use of the inaccurate data compromises the results of the forecasting model.
        This, in turn, can compromise management’s ability to make informed decisions as to
        how to prioritize work and how to allocate finite resources.

        Externally, BPAI continues to report these incorrect data on public websites without
        acknowledging the shortcomings of the older data. Without BPAI’s transparency about
        the problems with these data, external stakeholders, such as Congress, may incorrectly
        conclude that the spike in the backlog in 2009 and 2010 were a statistical anomaly
        rather than part of a larger trend associated with examiner hiring. This inaccuracy could
        also affect potential appellants’ decisions as to whether to file an appeal, given the
        amount of time the appeal could take. Had appellants understood that the increase in
        pendency was part of a larger trend, they may have chosen to pursue other options,
        such as submitting to USPTO an RCE, rather than appealing their case to BPAI.




FINAL REPORT NO. OIG-12-032-A                                                                           8
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       C. BPAI Has Not Established a Performance Metric For Ex Parte Appeals

              BPAI faces major challenges in addressing its growing number of appeals and increasing
              pendency—yet, unlike both Patents and Trademarks, it does not have official public
              program performance targets to serve as public benchmarks for directing its efforts and
              measuring the success of its ex parte activities.7 Official performance measures and
              indicators, such as those employed at Patents and Trademarks and published in
              USPTO’s annual and strategic plans, play an important role in managing the overall
              programs and operations. Such data help program managers determine whether they
              are meeting strategic and annual performance plans and hold managers accountable for
              progress toward meeting these goals. In addition, such measures also hold managers
              accountable for the effective and efficient use of resources. Without such public
              performance measures, BPAI risks diverting resources from ex parte appeals to other
              areas of work if there is no consensus as to what is an acceptable backlog size or length
              of appeal pendency. Further, without managing to targets, BPAI risks the ex parte appeal
              backlog returning to the historic highs of recent years if it directs attention and
              resources elsewhere. Publicly available pendency performance measures could also
              inform external stakeholders about how BPAI is progressing toward its targeted goals
              and also the expected amount of time to reach a decision. For example, as of the
              midpoint of FY 2012, the pendency of appeals on BPAI’s docket had increased to 23
              months. This is 6 months longer than the end-of- FY 2011 statistics last reported by
              BPAI. Further (as seen in figure 7 below), we forecast that, through FY 2015, the
              average pendency for an ex parte appeal decision will remain longer than 16 months (for
              assumptions informing these projections, see appendix A). With a reasonable
              expectation of how long it will likely take to receive a decision on an appeal, a potential
              appellant could weigh the appeal option against other choices, such as filing an RCE or
              reducing the number of claims for its patent application.




                                                            
7
 USPTO’s 2010–2015 Strategic Plan includes specific targets for both Trademarks and Patents. In the plan,
Trademarks established a first-action pendency target of 2.5–3.5-months and a final action pendency target of 13
months, with analysis to illustrate how it would achieve and measure those targets. Among other goals stated in
the plan, the Patents indicated that it would strive to achieve a 10-month pendency for first actions and a 20-
month overall pendency.


FINAL REPORT NO. OIG-12-032-A                                                                                      9
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

                                   Figure 7. Projected Pendency at BPAI (in Months)


                        2012

                        2013
         Fiscal Years




                        2014

                        2015

                        2016

                               0          5         10          15           20         25         30
                                                              Months
                                                  Forecasted Time to Reach a Decision


       Source: OIG, based on USPTO data

Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the United States Patent and Trademark Office:

    1.	 Align BPAI’s resource planning with the hiring actions and expected production levels of
        patent examiners;
    2.	 Require BPAI to annotate current information on public websites to indicate that
        backlog data prior to FY 2010 is underreported and therefore should be used with
        caution; and
    3.	 Direct BPAI to develop and publish performance measures and targets for ex parte
        appeals and other proceedings.

 




FINAL REPORT NO. OIG-12-032-A                                                                              10
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL


    II.	      BPAI, with Increased AIA Responsibilities, Lacks a Comprehensive Plan
              to Guide Implementation and Ongoing Management

       AIA significantly increases BPAI’s responsibilities, yet BPAI lacks a strategic plan for
       expanding its operations and an implementation plan to guide it through the many
       uncertainties associated with organizational growth. BPAI operations will be significantly
       affected as it implements four new proceedings—three starting on September 16, 2012, and
       the fourth on March 16, 2013. In undertaking this large endeavor, and when combined with
       its existing operations, BPAI may more than
       double the number of APJs during FYs 2011–
       2013. However, BPAI has developed neither a                With the implementation of AIA,
       comprehensive strategic plan for its expanding             BPAI will begin managing three
       operations nor a plan to help guide it through the
                                                                  new procedures in September 2012,
       preparation and implementation of the new
                                                                  and BPAI has requested a total of 146
       proceedings. Instead, BPAI has taken a piecemeal
                                                                  new staff over the next 5 years to
       approach and planned only for some aspects of
                                                                  specifically work on AIA proceedings.
       individual activities. In doing this, BPAI is missing

       an opportunity to smooth the transition to these

       new programs and mitigate risks for the many 

       acknowledged uncertainties ahead.


       Given the new AIA responsibilities and the corresponding growth of BPAI, it needs a
       comprehensive strategic planning effort to guide BPAI through the process of implementing
       the new provisions and then overseeing the operational phases. The Government
       Accountability Office (GAO) has recommended8 that, as part of the strategic planning
       efforts for new or existing programs, federal agencies should include implementation plans
       to assist them in making the transition. According to GAO, the plans should document a
       project’s or program’s (1) responsibility for the overall and individual tasks, (2) schedules,
       (3) tasks and milestones, (4) delivery dates and status, (5) performance measures, (6) cost
       estimates, (7) resource estimates, (8) identified risks, (9) prioritized initiatives, and (10)
       revised goals, if revisions become necessary.

       A. BPAI Lacked a Comprehensive AIA Implementation Plan Before May 2012

              To address the passage of the law, BPAI prepared key individual documents (see table 1
              below) but did not initially prepare a comprehensive implementation plan with
              milestones, delivery dates, and performance measures to ensure timely implementation
              or help identify and manage potential risks.

 




                                                            
8
    See appendix A for specific GAO reports.


FINAL REPORT NO. OIG-12-032-A                                                                        11
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

          Table 1. Various BPAI Planning Documents for AIA Implementation

        BPAI Planning
                                                                 Purpose
        Document
                                    Documents general goals, resources needed to implement new AIA
        Business Case               proceedings; includes estimates, forecasts for number of each type
        Template                    of new proceeding, number of APJs required for FYs 2012–2017,
                                    and financial resources needed to fund these positions
                                    Describes processes and paperwork for post grant reviews, inter
                                    partes reviews, covered business method patent reviews, and
        Proposed
                                    derivation proceedings; estimates the expected number of
        Rulesa
                                    proceedings, number of APJs needed to do this work, and funding
                                    necessary for additional personnel expenses
        USPTO’s FY 2013
                                    Contains resource requests to hire an additional 146 staff members
        Proposed President’s
                                    between FYs 2013 and 2017 for new proceedings
        Budget

       Source: OIG, based on USPTO documents
       a
         BPAI issued proposed rules for post grant reviews, inter partes reviews, covered business method patent
       reviews, and derivation proceedings in the Federal Register in February 2012.

        However, even with these documents, we found that initially BPAI lacked an overall
        implementation plan to guide its AIA transition and individual implementation plans for
        its new AIA proceedings scheduled to begin in September 2012. The business case
        template, the proposed rules, and the President’s budget proposal lack comprehensive
        and individual plans to implement the tasks including the hiring of additional staff
        members necessary for AIA transition.

        Further, none of these three documents articulate the needs for additional space to
        house the additional APJs, nor do they communicate needs related to information
        technology, such as whether the current case management system can handle the
        additional proceedings. For example, while the strategy was not documented anywhere,
        BPAI officials explained that, as soon as AIA was enacted, they met with USPTO’s chief
        information officer to discuss updating the current case management data system to
        accommodate the additional proceedings under AIA. Efforts began to identify
        requirements and BPAI initiated a contract for an information management system to be
        in place by the legislative deadline of September 16, 2012. On April 20, 2012—5 months
        before the legislative deadline—USPTO signed a contract to design and implement a
        new system for its AIA proceedings. This short time frame leaves little time for
        addressing issues that may arise in making this system operational.

    B. Current AIA Implementation Plan Lacks Requirements for Measuring Progress and Performance

        Late in our review, BPAI prepared a strategic implementation plan for AIA that outlined
        the broad-term transition to the new proceedings. The document, provided to OIG
        staff on May 2, 2012, includes general descriptions of BPAI needs for executive, regional,
        and administrative management; human capital; information technology; training; rule
        making; and space planning. However, this plan still lacks the milestones, tasks, delivery


FINAL REPORT NO. OIG-12-032-A                                                                                 12
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

        dates, and task leads to guide AIA implementation, measure progress and results of the
        four new proceedings, and manage and mitigate risks before they occur. Without these
        details, BPAI lacks the fundamental project management tools used to manage
        uncertainty and deliver results. Further, although the plan notes there will be challenges
        in implementing a new IT system to process the new proceedings, hiring adequate staff,
        finalizing the new administrative rules, and locating adequate space for the new
        personnel, it does not provide insight on mitigating the risks and ensuring success. Given
        BPAI’s previous problems accurately accounting for all appeals in its current IT
        infrastructure, any lapses in mitigating AIA implementation-related risks could prove to
        have significant impact.

        While BPAI has begun hiring judges, obtained additional office space at USPTO
        headquarters and its satellite office in Detroit, and contracted for a new case
        management system, the new proceedings will coincide with BPAI addressing its current
        backlog of ex parte cases. Implementing operational changes and addressing existing
        backlogs are never easy endeavors; while BPAI notes that there will be challenges, its
        planning efforts have been piecemeal when a more comprehensive approach would
        more likely result in success.

    C. BPAI Has Not Determined Its Future Management and Administrative Staffing Structure

        BPAI will undergo historical changes as it increases in size to address its growing ex
        parte appeal backlog and its four new AIA trial proceedings. Nevertheless, BPAI has not
        completed a comprehensive workforce analysis or prepared a workforce plan for its
        future management and administrative staffing needs. As a result, BPAI risks not having
        an appropriate organizational structure and personnel in place to adequately manage all
        of its work.

        In its initial planning documents, such as its business case template and the FY 2013
        proposed President’s budget, BPAI outlined the hiring needs for APJs to handle ex parte
        appeals and the new AIA proceedings. In addition to hiring APJs, BPAI has also begun
        hiring additional support personnel for administrative roles and is considering creating a
        new director of IT position to oversee its growing information technology requirements
        of the board. Further, BPAI officials noted they have begun discussing organizational
        changes with USPTO’s Office of Human Resources in order to effectively operate in a
        post-AIA environment.

        However, without an evaluation of its future staffing needs, and a workforce plan to
        manage the transition, BPAI’s management and administrative personnel may not be in a
        position to adequately oversee personnel, process proceedings, and ultimately meet its
        mission.

 




FINAL REPORT NO. OIG-12-032-A                                                                   13
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Recommendations

We recommend that the Under Secretary of Commerce for Intellectual Property and Director
of the United States Patent and Trademark Office:

    1.	 Develop comprehensive management plans (including how to measure progress, gauge
        performance, and identify risk) to address the implementation and operational oversight
        of the new BPAI proceedings under the AIA;
    2.	 Ensure that data processing systems meet the needs of all four AIA proceedings; and
    3.	 Explore the feasibility of BPAI’s current management and administrative structure and
        staffing, given the increase in the number of proceedings and staff at BPAI.

                                 




FINAL REPORT NO. OIG-12-032-A                                                                   14
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Summary of Agency Comments and OIG
Response
In response to our draft report, the Under Secretary of Commerce for Intellectual Property
and Director of the U.S. Patent and Trademark Office agreed with all of our recommendations.
The response below summarizes the steps USPTO has taken or is taking that address the
recommendations in the report.

Recommendation 1: USPTO noted that it must consider additional factors, such the handling
of interferences and reexamination appeals, when determining hiring levels. We acknowledge
other factors affect resource planning but reiterate our recommendation for USPTO to take
corrective action.

Recommendation 2: USPTO has already described the problems with the appeal data on its
Web site to external stakeholders. This should provide applicants with the information they
need to assess whether to pursue options other than an ex parte appeal.

Recommendation 3: USPTO reported having established internal performance targets for its
senior management. Our finding referred to publicly-reported performance measures. We have
modified this section of our report slightly to clarify this point and reiterate our
recommendation.

Recommendation 4: USPTO stated it has developed initial management plans that establish
initial timelines and resource allocations for the AIA proceedings.

Recommendation 5: USPTO is working with its Chief Information Officer to ensure that its
new data processing for AIA proceedings will be available on or before September 16, 2012.

Recommendation 6: USPTO has implemented initial management structural changes and, in
conjunction with the Chief Administrative Officer, has begun an organizational study of BPAI
which will result in a proposed new management structure by the first quarter of FY 2013.

We encourage USPTO to continue taking corrective actions in response to our
recommendations and look forward to receiving its action plan following the issuance of this
final report. We have included USPTO’s formal response as appendix C.


 




FINAL REPORT NO. OIG-12-032-A                                                                  15
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objectives of this review were to determine (1) whether BPAI staffing and resources have
changed in relation to changes in its caseload; and (2) to what extent BPAI operations and
resources will be affected by the implementation of the America Invents Act (AIA). For the first
objective, we focused our work on BPAI staffing levels for FYs 2005–2012 and changes to its
caseload during that same time period. For the second objective, we focused our work on BPAI
plans to implement AIA requirements and what resources BPAI had requested and budgeted to
implement AIA requirements during FY 2012 and future years.

    Data, Methodology, and Control Testing for Objective 1

        Data. In order to analyze BPAI’s staffing and caseload levels, we obtained data from a
        variety of sources, as outlined below.

           Table A-1. Personnel, Caseload, and Internal Control Data Sources

        Data Source                               Type of Data and Description
        National Finance Center    Payroll data. Provide number of BPAI employees onboard at the
        (NFC)                      end of the fiscal year by position title.
        Patent Application         Employee production data. Help determine the number of patent
        Locating and Monitoring    examiners on board and reviewing patents at the end of the
        (PALM) system              fiscal year.
                                       Decided appeals. Enumerate all appeal decisions issued FYs
        Adjudicated Case                2005–2011, as well as the first 6 months of FY 2012.
        Tracking System
        (ACTS)                         Docketed appeals. Enumerate all appeals on BPAI’s docket
                                        for FYs 2005–2011 and select months of FY 2012.
                                       Filing date. Provides all appeals decided in FYs 2010 and
                                        2011.
                                       Status code dates for appeals. Supply date that any appeal
        PALM                            achieved specific statuses (e.g., examiner answer mailed,
                                        reply brief filed) for all appeals during FYs 2005–2011.
                                       Pull reports. Identify whether a case is ready for BPAI review
                                        (OIG obtained 7 weeks of reports). 

       Source: USPTO

        Data Reliability Testing. We assessed the reliability of data obtained from the NFC, PALM,
        and ACTS data systems in accordance with Generally Accepted Government Auditing
        Standards (GAGAS). We reviewed whether there were any information control
        problems or data quality issues known to the system owners. In addition, we identified
        no known issues with NFC, and found the NFC data to be sufficiently reliable for
        describing the number of BPAI staff on board during this period.



FINAL REPORT NO. OIG-12-032-A                                                                            16
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

        However, the system owners for ACTS and PALM communicated problems with the
        internal controls that could increase the risk of unreliable data from these systems.
        Because of these limitations, we performed more extensive electronic testing data from
        both of these systems. We also performed reasonableness tests to determine whether
        there were any illogical relationships, historical anomalies, or missing data. Although we
        identified some anomalies, we determined that the issues were a result of the specific
        reports generated by the data system rather than the actual data.

        We found that the ACTS and PALM data were sufficiently reliable for describing
        historical trends for the number of staff on board at the Patent Corps, as well as
        describing the number of decisions that BPAI issued. However, we also determined that
        the ACTS data were not sufficiently reliable for describing the number of new appeals
        reaching BPAI dockets between 2005 and 2009. Therefore, we established estimates for
        these figures.

        Data Limitations. We faced some limitations with the data we received from the ACTS
        system because the reports generated inaccurate information for the notice of appeal
        for a small subset of cases. We excluded these appeals from our analysis and, thus, from
        our historical backlog and pendency estimates. Additionally, we identified a few
        instances in which a single appeal appeared to have received multiple decisions because
        of how ACTS generates the report.

        Our ability to conduct certain types of forecasting was also limited by the data that
        ACTS does not collect. For instance, ACTS does not record how many decisions each
        judge issues in a year, therefore limiting our ability to determine how many appeals a
        new judge would typically issue in a year. We needed this information to forecast the
        future productivity of new judges hired in FYs 2012– 2013. Instead, we assumed that all
        new judges would meet the minimum number of decisions required to achieve a fully
        satisfactory rating identified in BPAI’s annual performance plans. For FY 2011, first year
        judges were required to issue 60 decisions if they were in the chemical and mechanical
        divisions and 49 decisions for all other technical specialties.

        Methodology to Analyze Actual and Estimated BPAI APJ Levels. From our analysis of the
        payroll data we were able to determine the number of administrative patent judges
        (APJs) on board at the end of the each fiscal year. It was determined that BPAI's APJ
        staffing levels remained relatively constant with a net gain of 46 judges from 2005 to
        2011. However, during the same time period, patent examiners staffing levels continued
        to grow at a rapid rate with 4,258 patent examiners onboard at the end of FY 2005 and
        6,785 onboard at the end of FY 2011.

        Methodology to Estimate the Number of Ex Parte Appeals Docketed, FYs 2005–2009. We
        built upon BPAI’s current forecasting methodology to estimate the likely size of the
        backlog between FYs 2005 and 2009.




FINAL REPORT NO. OIG-12-032-A                                                                    17
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

              To estimate the likely size of the FY 2005–2009 backlog, we obtained data on the
              number of disposals not allowed and examiner’s answers written during this period.9
              Using a file containing all of the examiner’s answers and a file containing all of the
              applications reaching BPAI’s docket between FYs 2005 and 2011, we tested (1) how
              many of the appeals that received an examiner answer during FYs 2010 and 201110 were
              eventually on BPAI’s docket and (2) the amount of time that passed between receiving
              an examiner’s answer and a case reaching BPAI’s docket.

              We concluded that 96 percent of the appeals that had received an examiner’s answer
              were eventually on docket. We also found that 75 percent of the appeals arrived at
              BPAI within 4 months of receiving an examiner’s answer. We then used these two
              statistics to estimate the likely size of the backlog for FYs 2005–2009.

              Methodology to Forecast the Ex Parte Appeals Backlog. To forecast the likely size of the
              backlog for FYs 2012–2016, we first built upon our methodology to estimate the actual
              backload of cases and the likely number of examiner’s answers. Using estimates of the
              number of disposals and allowance rate for FYs 2012–201611 from USPTO’s patent
              production model, we estimated the initial size of the pool of applications that could be
              appealed.

              We also found a correlation between the percentage of non-allowed decisions that are
              appealed and the allowance rate of the prior year (r=.6). Essentially, as the allowance
              rate increases, the number of rejected applications that are appealed decreases. Using a
              simple regression model, we found that for every 1 percent increase in the allowance
              rates, the percent of non-allowed decisions that are appealed decreases by 0.1 percent.
              We then used this relationship to estimate the number of examiner’s answers that
              would be generated in FYs 2012– 2016.

              Next, we combined our finding that 96 percent of examiners’ answers would eventually
              become appeals with a similar finding that, in FYs 2010 and 2011, BPAI’s docket received
              8 percent more appeals than the initial pool of examiners’ answers. We then estimated
              the number of examiners answer based on the projected number of disposals and
              allowance rates, multiplied this by 96 percent, and multiplied the result by 10 percent to
              generate the likely intake of new appeals each year for FYs 2012–2016.

              After calculating how many new appeals could occur in future years, we then estimated
              how many decisions BPAI could issue during FYs 2012–2016, based on previous
              performance and the number of new APJs that BPAI has been approved to hire to
              review ex parte appeals. We used the production levels of FY 2011 as the productivity
              level of the current corps of judges and estimated when the 105 new judges would be

                                                            
9
  Generally, an examiner’s answer is written if the appellant correctly files a notice of appeal and appeal brief and
pays the relevant fees.
10
   Because of known inaccuracies in the data prior to FY 2009, we used FYs 2010 and 2011 to obtain these
estimates.
11
   As of February 2012.


FINAL REPORT NO. OIG-12-032-A                                                                                           18
  DEPARTMENT OF COMMERCE
U.S.                                                                                                            OFFICE OF INSPECTOR GENERAL

              on board.12 We also assumed that all new judges would issue the minimum number of
              decisions required to achieve a fully satisfactory rating. These targets are laid out in
              BPAI’s annual performance plans.

        Table A-2. Assumptions Regarding Number APJs Hired and Timing of Hires

                          FY                                                         OIG Assumption
                                                            20 judges start at midpoint of the fiscal year
                          2012
                                                            55 judges start at beginning of the last quarter of the year
                          2013                                 30 judges start at midpoint of the fiscal year
                                                               All (105 in total) full-time administrative patent judges hired in
                          2014 and
                                                               FYs 2012 and 2013 would perform at a fully satisfactory level
                          beyond
                                                               and any attrition would be backfilled immediately.a

                         Source: OIG, based on USPTO data 

                         a
                           BPAI requested to hire APJs for FY 2014, but this request has not yet been approved.


              Methodology to Forecast the Ex Parte Appeals Pendency. We then determined the likely
              pendency of appeals using inputs from the analysis above and information on the current
              backlog. By comparing the number of docketed appeals that had not been decided, we
              calculated the age of oldest cases in the ACTS system. We assumed that BPAI would
              review the oldest appeals first. We then calculated the pendency of appeals by
              employing BPAI’s historical decision rate, the estimated intake of new appeals, and
              estimate productive capacity of APJs for FYs 2012–2016. From this analysis, we could
              thus estimate the likely number of months it will take BPAI to reach a decision on an
              appeal after it is docketed at BPAI in future years.

              Methodology to Estimate the Difference Between the Estimated Workload and Required
              Workload. To estimate the difference between the estimated workload and required
              workload, we based our analysis upon the methodologies used to estimate the size of
              the backlog and the performance expectations laid out in the APJs performance plans.
              Required workload describes the minimum number of appeals a judge must issue in a
              year, based on that judge’s discipline, to achieve a fully satisfactory rating. To calculate
              the estimated workload, we divided the total workload for the year by the estimated
              number of APJs reviewing ex parte appeals. We estimated how many APJs spent the
              majority of their time reviewing ex parte appeals by reviewing BPAI organizational
              charts. To calculate the total workload, we added the number of decided appeals in a
              year (the completed work) with the estimated size of the ex parte appeal backlog (the
              incomplete work) for the year.

                                                            
12
   BPAI indicated that it was on track to have 75 full-time APJs on board by the end of FY 2012 to review ex parte
appeals. BPAI also received approval to hire an additional 34 judges to review ex parte cases in FY 2012. We
assume that BPAI will meet their FY 2012 target and 95 percent of the approved hires for FY13 and some of these
positions will also include part-time judges. For fiscal year 2012, we assumed that 20 judges would start at the mid-
point of the fiscal year and another 55 judges would be on board for the last quarter of the year based on BPAI’s
projected hiring. We also assumed that the judges hired to review the new AIA proceedings, and not included in
the figures mentioned in our report, would review AIA proceedings rather than ex parte appeals.


FINAL REPORT NO. OIG-12-032-A                                                                                                           19
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

              Internal Control Testing. Because of the significant problems in the past of transferring
              appeals from the patent corps to BPAI, along with continued manual input of some data,
              we focused our internal control testing on whether appeals were being transferred in a
              timely basis since the implementation of new controls. This included testing whether
              cases identified as ready for BPAI review were correctly entered into ACTS and in a
              timely manner, as well as whether the controls put in place to correct the previous
              problems were working. Overall, we did not identify concerns with USPTO’s internal
              controls that ensure appeals are transferred to BPAI in timely manner.

       Data, Methodology, and Control Testing for Objective 2

              For objective 2, we obtained and reviewed relevant agency documents including the May
              2011 business case template for AIA Implementation; the February 2012 proposed new
              rules for AIA inter partes reviews, post grant reviews, combined business method
              patent reviews, and derivation proceedings; and the February 2012 USPTO FY 2013
              President’s budget. We also interviewed appropriate BPAI officials. To determine what
              documentation federal agencies should prepare when undertaking a program such as
              AIA, we reviewed relevant GAO reports, which indicated that federal agencies should
              prepare implementation plans to undertake new programs and guide operational
              initiatives.13

The audit was conducted under the authority of the Inspector Act of 1978, as amended and
Department Organization Order 10-13, dated August 31, 2006. We conducted the audit in
accordance with generally accepted government auditing standards between November 2011
and May 2012 at USPTO headquarters in Alexandria, Virginia. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

 




                                                            
13
  The GAO reports included Increased Federal Planning and Risk Management Could Further Facilitate the DTV
Transition (GAO-08-43, November 19, 2007); Army Needs to Finalize an Implementation Plan and Funding Strategy for
Sustaining an Operational Reserve Force (GAO-09-898, September 17, 2009); and Content and Coordination of Space
Science and Technology Strategy Need to Be More Robust (GAO-11-722, July 19, 2011).


FINAL REPORT NO. OIG-12-032-A                                                                                   20
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Appendix B: Ex Parte Appeals Process
BPAI’s ex parte caseload flows directly from decisions made by patent examiners. In order for a
patent application to become a docketed appeal, a patent examiner must reject patent claims
twice. Subsequently, if the applicant files a notice of appeal and an appeal brief, and pays the
relevant fees, then the patent examiner must issue an examiner’s answer. After the examiner’s
answer is issued, the appeal goes through several more steps before it is docketed with BPAI.14

                       Figure B-1. Required and Optional Steps in the Appeal Process




    Source: OIG, based on USPTO documents

 



                                                            
14
   This chart reflects the appeals process in place at the start of our audit. BPAI amended the rules of procedure
effective January 23, 2012, but the process generally remains the same.


FINAL REPORT NO. OIG-12-032-A                                                                                        21
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response 





 




FINAL REPORT NO. OIG-12-032-A                           22
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-12-032-A                           23
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-12-032-A                           24
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




10USPTO00132 





FINAL REPORT NO. OIG-12-032-A                           25
